               AUDIT OF THE

KANSAS CITY, MISSOURI, POLICE DEPARTMENT’S

  EQUITABLE SHARING PROGRAM ACTIVITIES





         U.S. Department of Justice

       Office of the Inspector General

                Audit Division



         Audit Report GR-50-12-006

                 June 2012

                      AUDIT OF THE

       KANSAS CITY, MISSOURI, POLICE DEPARTMENT’S

         EQUITABLE SHARING PROGRAM ACTIVITIES


                              EXECUTIVE SUMMARY


      The U.S. Department of Justice (DOJ), Office of the Inspector General
(OIG), Audit Division has completed an audit of the use of DOJ equitable
sharing funds by the Kansas City, Missouri, Police Department (KCPD).
Equitable sharing funds represent a share of the proceeds from the forfeiture
of assets seized in the course of certain criminal investigations. 1 During the
audit period of May 1, 2009, through April 30, 2011, the KCPD received DOJ
equitable sharing funds totaling $1,361,418 to support law enforcement
operations. 2

       The objectives of the audit were to assess whether equitably shared cash
received by the KCPD was accounted for properly and used for allowable
purposes as defined by the applicable regulations and guidelines. We found
that the KCPD primarily spent DOJ equitable sharing funds to enhance and
support law enforcement capabilities of the police department. However, we
found weaknesses in the methods used by the KCPD to account for and report
DOJ equitable sharing funds and we identified errors in the KCPD’s Annual
Certification Reports. Specifically, we found that:

       •	 The KCPD did not separately account for DOJ equitable sharing
          receipts, expenditures, and interest income earned on DOJ equitable
          sharing funds received.

       •	 The KCPD did not accurately report DOJ equitable sharing fund
          expenditures on its Schedule of Expenditures of Federal Awards for
          FY 2011.

       •	 The KCPD did not accurately report interest income earned on DOJ
          equitable sharing funds and some DOJ equitable sharing fund
          expenditures on its Annual Certification Reports for FYs 2010 and
          2011.

       1
           The DOJ asset forfeiture program has three primary goals: (1) to punish and deter
criminal activity by depriving criminals of property used or acquired through illegal activities;
(2) to enhance cooperation among foreign, federal, state, and local law enforcement agencies
through equitable sharing of assets recovered through this program; and, as a by-product,
(3) to produce revenues to enhance forfeitures and strengthen law enforcement.
       2
           The KCPD fiscal year begins on May 1 and ends on April 30.
      Our report contains three recommendations that address the
weaknesses we identified. Our findings are discussed in greater detail in the
Findings and Recommendations section of the report. The audit objectives,
scope, and methodology are included in Appendix I.




                                    - ii -
                                TABLE OF CONTENTS



INTRODUCTION .................................................................................1

       Background .................................................................................1

       OIG Audit Approach......................................................................2

FINDINGS AND RECOMMENDATIONS.................................................4

       Accounting for Equitably Shared Resources .....................................4

       DAG-71s .....................................................................................6

       Compliance with Audit Requirements ..............................................7

       Equitable Sharing Agreement and Certification Forms .......................8

       Use of Equitable Sharing Funds .................................................... 10

       Views of Responsible Officials ...................................................... 11

       Recommendations ...................................................................... 11


APPENDIX I -          OBJECTIVES, SCOPE, AND METHODOLOGY .............13


APPENDIX II - KANSAS CITY POLICE DEPARTMENT

              RESPONSE TO THE DRAFT REPORT .........................15


APPENDIX III - OFFICE OF THE INSPECTOR GENERAL

               ANALYSIS AND SUMMARY OF ACTIONS 

               NECESSARY TO RESOLVE THE REPORT ...................17

                                 INTRODUCTION

      The U.S. Department of Justice (DOJ), Office of the Inspector General
(OIG), Audit Division, has completed an audit of the use of DOJ equitable
sharing funds by the Kansas City, Missouri, Police Department (KCPD). The
audit covered the KCPD’s fiscal years (FY) 2010 and 2011, beginning on May 1,
2009, and ending on April 30, 2011. 3 During that period, the KCPD received
DOJ equitable sharing funds totaling $1,361,418 to support law enforcement
operations. The objectives of the audit were to assess whether equitably
shared cash received by the requesting agency was accounted for properly and
used for allowable purposes as defined by the applicable regulations and
guidelines.

Background

       The primary mission of the DOJ Asset Forfeiture Program is to employ
asset forfeiture powers in a manner that enhances public safety and security.
This is accomplished by removing the proceeds of crime and other assets relied
upon by criminals and their associates to perpetuate their criminal activity
against our society. A sset forfeiture has the power to disrupt or dismantle
criminal organizations that would continue to function if we only convicted and
incarcerated specific individuals.

       Another purpose of the DOJ Asset Forfeiture Program is to deter crime by
depriving criminals of the profit and proceeds from illegal activities. A
secondary purpose of the program is to enhance cooperation among federal,
state, and local law enforcement agencies by sharing federal forfeiture
proceeds through the DOJ equitable sharing program. State and local law
enforcement agencies may receive equitable sharing revenues by participating
directly with DOJ agencies in joint investigations leading to the seizure or
forfeiture of property. The amount shared with the state and local law
enforcement agencies in joint investigations is based on the degree of the
agencies’ direct participation in the case. The U.S. Department of the
Treasury (Treasury) administers its own Asset Forfeiture Program. Our audit
was limited to equitable sharing revenues received through the DOJ equitable
sharing program.

       Although several DOJ agencies are involved in various aspects of the
seizure, forfeiture, and disposition of equitable sharing revenues, the
DOJ Criminal Division, Asset Forfeiture and Money Laundering Section
(AFMLS), is responsible for issuing policy statements, implementing governing
legislation, and monitoring the use of DOJ equitable sharing funds. Generally,

      3
          The KCPD fiscal year begins on May 1 and ends on April 30.
the use of equitable sharing revenues by state and local recipient agencies is
limited to law enforcement purposes. However, under certain circumstances,
up to 15 percent of equitable sharing revenues may be used for the costs
associated with drug abuse treatment, drug and crime prevention education,
housing and job skills programs, or other nonprofit community-based
programs or activities. This provision requires that all expenditures be made
by the law enforcement agency and does not allow for the transfer of cash.

      Kansas City is the largest city in the state of Missouri, encompassing
more than 316 square miles in parts of Jackson, Clay, Cass, and Platte
counties. As of 2010, the population of Kansas City was 459,787. The KCPD
has more than 1,400 officers and 600 civilians and is governed by the Board of
Police Commissioners, appointed by the governor.

OIG Audit Approach

       We tested compliance with what we considered to be the most important
conditions of the DOJ equitable sharing program. Unless otherwise stated,
we applied the Guide to Equitable Sharing for State and Local Law Enforcement
Agencies, dated April 2009 (2009 Equitable Sharing Guide) as our primary
criteria. The 2009 Equitable Sharing Guide identifies the accounting
procedures and requirements for tracking equitably shared monies and
tangible property, establishes reporting and audit requirements, and defines
the permissible uses of equitably shared resources.

      To conduct the audit, we tested the KCPD’s compliance with the
following five aspects of the DOJ equitable sharing program:

      •	 Accounting for equitably shared resources to determine
         whether standard accounting procedures were used to track
         equitable sharing assets.

      •	 Monitoring of Applications for Transfer of Federally Forfeited
         Property to ensure adequate controls were established.

      •	 Compliance with audit requirements to ensure the accuracy,
         consistency, and uniformity of audited equitable sharing data.

      •	 Annual Equitable Sharing Agreements and Certification Forms
         to determine if these documents were complete and accurate.

      •	 Use of equitably shared resources to determine if equitable
         sharing funds were spent for permissible uses.



                                    -2-
     See the Appendix I for more information on our objectives, scope, and
methodology.




                                   -3-
              FINDINGS AND RECOMMENDATIONS

     We found that the KCPD did not separately account for DOJ
     equitable sharing receipts and interest earned on DOJ equitable
     sharing funds and did not accurately record some equitable
     sharing expenditures in its official accounting records. We also
     found that the KCPD did not accurately report DOJ equitable
     sharing expenditures on its Schedule of Expenditures of Federal
     Awards for FY 2011. Further, we found errors in the 2010 and
     2011 Equitable Sharing Agreement and Certification forms
     submitted by the KCPD. However, we found that the KCPD
     complied with equitable sharing guidelines with respect to timely
     submission of annual Equitable Sharing Agreement and
     Certification forms, permissible uses of equitable sharing funds,
     and adherence to non-supplanting requirements.

Accounting for Equitably Shared Resources

      The 2009 Equitable Sharing Guide requires that all participating state
and local law enforcement agencies implement standard accounting
procedures to track equitably shared tangible property and funds. The
2009 Equitable Sharing Guide also requires that DOJ equitable sharing funds
be accounted for separate from any other funds.

      We reviewed the AFMLS report of DOJ equitable sharing distributions
and determined the KCPD did not receive any equitably shared tangible assets
during FYs 2009 and 2010. As shown in the following table, during FYs 2010
and 2011, the AFMLS reported 110 distributions of equitable sharing funds to
the KCPD, totaling $1,361,418.

TABLE 1:    DOJ EQUITABLE SHARING DISTRIBUTIONS TO THE KCPD
                      FY 2010 through 2011
               Fiscal Year     Distributions      Amount
                  2010              41           $593,762.83
                  2011              69            767,655.18
                       TOTAL       110         $1,361,418.01
             Source:   AFMLS


      To determine if the KCPD properly deposited and accounted for DOJ
equitable sharing funds, we reviewed and reconciled the KCPD’s accounting
records to DOJ reports of equitable sharing funds distributed.


                                      -4-
       Through our review of KCPD official accounting records, we determined
that the KCPD was not separately accounting for DOJ equitable sharing
receipts and expenditures as required by the 2009 Equitable Sharing Guide.
The KCPD Accounting and Payroll Section Supervisor confirmed that all federal
forfeiture funds were deposited into the KCPD checking account and recorded
in a single revenue account in the official accounting records. The Supervisor
also advised us that it was the KCPD’s practice to consider equitable sharing
fund expenditures to be Department of the Treasury funds until expenditures
equaled Department of the Treasury receipts and then consider all subsequent
equitable sharing expenditures to be from DOJ equitable sharing funds.

      We advised KCPD officials that the accounting practices related to DOJ
equitable sharing funds were not in compliance with the 2009 Equitable
Sharing Guide requirement to separately account for DOJ equitable sharing
funds. KCPD officials informed us they would immediately revise their
procedures to separately account for DOJ equitable sharing funds.

       Although the KCPD did not separately account for DOJ equitable sharing
funds, through our review of the KCPD accounting records we determined that
all DOJ equitable sharing fund receipts were recorded correctly in the KCPD
accounting records. We judgmentally selected and tested five receipts
totaling $477,024 to ensure the funds were properly deposited and recorded in
a timely manner. The following table shows the sampled receipts were
properly deposited in a timely manner.

      TABLE 2:     KCPD EQUITABLE SHARING RECEIPTS REVIEWED
                               FY 2011

              DOJ Detail
                                           KCPD Accounting Records
         Distribution Report


    Distribution    Distribution    Amount         Deposit
                                                                Deposit Date
        Date          Amount        Received       Amount

     08/24/2010       $43,061.94    $43,061.94     $43,061.94    08/24/2010
     10/15/2010      $157,088.16   $157,088.16    $157,088.16    10/15/2010
     11/22/2010      $194,350.25   $194,350.25    $194,350.25    11/22/2010
     11/22/2010       $48,167.68    $48,167.68     $48,167.68    11/22/2010
     04/15/2011       $34,356.00    $34,356.00     $34,356.00    04/15/2011
        TOTAL     $477,024.03      $477,024.03   $477,024.03
  Source: KCPD and AFMLS

     Through our review of the KCPD accounting records, we also found that
KCPD recorded expenditures for checking account service charges as debits to


                                     -5-
an earned interest account. As a result, interest earned on DOJ equitable
sharing funds and equitable sharing fund expenditures were understated in
KCPD accounting records. We discuss the subsequent reporting errors in the
Equitable Sharing Agreement and Certification forms section of this report.

       We advised KCPD officials that the lack of separate accounting for DOJ
equitable sharing funds had resulted in errors in the Equitable Sharing
Agreement and Certification forms we reviewed. KCPD officials advised that
the previously discussed revisions to their accounting procedures would help
ensure accurate reporting in their future Equitable Sharing Agreement and
Certification forms.

DAG-71s

      The 2009 Equitable Sharing Guide states that all participating agencies
should maintain a log of all sharing requests that consecutively numbers the
requests and includes the seizure type, seizure amount, share amount
requested, amount received, and date received for each request. We
interviewed a KCPD official regarding the procedures for monitoring equitable
sharing requests and receipts and reconciled the KCPD equitable sharing logs
to the DOJ Detail Distribution Report.

       The KCPD assigned a detective to oversee the KCPD’s equitable sharing
activities. The KCPD Asset Forfeiture Detective advised us that the KCPD
receives from federal seizing agencies notices of federal seizures in which the
KCPD was involved and may be eligible for equitable sharing revenue.
According to the Detective, at that time, the seizure information is recorded in
a handwritten Seizure/Forfeiture Case Log and an Application for Transfer of
Federally Forfeited Property (DAG-71) is prepared and forwarded to the
Accounting and Payroll Supervisor. 4 The Detective told us the DAG 71s are
then reviewed and signed by the KCPD General Counsel and Deputy Police
Chief before they are submitted to the federal agency processing the
forfeiture. When the DAG 71s are submitted, the Asset Forfeiture Detective
records the details of the requests in an electronic spreadsheet. According to
the Asset Forfeiture Detective, the spreadsheet is updated upon notification
from the Accounting and Payroll section that equitable sharing funds have
been received. The Asset Forfeiture Detective also records the receipts in
another electronic spreadsheet that summarizes the receipts by the
appropriate Department. T his summary spreadsheet is annually reconciled
with KCPD official accounting records and used to prepare the Annual Equitable
Sharing Agreement and Certification.
       4
          The DAG-71 is the DOJ form submitted by a state or local agency to the federal
seizing agency to request a share of seized assets. The state or local agency is required to
maintain a log of its DAG-71s in accordance with equitable sharing guidelines.


                                           -6-
       We determined the KCPD’s equitable sharing requests were not
consecutively numbered in the detailed log of equitable sharing requests as
required by the 2009 Equitable Sharing Guide. The log did include the seizure
type, seizure amount, share amount requested, amount received, and date
received as required. However, through our reconciliation of the KCPD’s log
and the DOJ Distribution Report, we noted one receipt was not recorded and
one receipt was not accurately recorded in the log. We did not identify any
discrepancies during our reconciliation of the KCPD’s summary spreadsheet of
receipts by Department and the DOJ Detail Distribution Report. In our
opinion, the KCPD should consider maintaining one log of equitable sharing
activity and periodically reconciling the log to KCPD accounting records to
ensure accuracy and consistency in its DOJ equitable sharing records.

Compliance with Audit Requirements

      The 2009 Equitable Sharing Guide requires the KCPD to comply with
audit requirements of the Single Audit Act Amendment of 1996 and OMB
Circular A-133, Audits of States, Local Governments, and Non-Profit
Organizations. O MB Circular A-133 requires non-federal entities to prepare a
Schedule of Expenditures of Federal Awards for the period covered by the
auditee's financial statements.

      To determine if the KCPD accurately reported DOJ equitable sharing fund
expenditures, we reviewed the KCPD’s accounting records and the Schedule of
Expenditures of Federal Awards included in the KCPD’s Single Audit Report for
the year ended April 30, 2011.

     We identified the following errors during our review of the KCPD’s
Schedule of Expenditures of Federal Awards.

      •	 The KCPD did not identify DOJ equitable sharing program funds
         separate from Department of the Treasury funds on the schedule, and

      •	 The KCPD reported total federal forfeiture funds received and the
         related interest earned as expenditures on the schedule.

       We advised KCPD officials that the reporting of DOJ equitable sharing
program receipts rather than expenditures on the Schedule of Expenditures of
Federal Awards was not in compliance with OMB Circular A-133. KCPD
officials advised us they were aware of the reporting requirements established
in OMB Circular A-133, had discussed with the independent auditors the proper
method of reporting federal forfeiture funds in the Schedule of Expenditures of
Federal Awards, and believe they are in compliance based on their


                                     -7-
interpretation of OMB Circular A-133, § 205. We confirmed with AFMLS that
“expended” funds, not funds “received but as yet unspent” should be reported
on the Schedule of Expenditure of Federal Awards.

Equitable Sharing Agreement and Certification Forms

      The 2009 Equitable Sharing Guide requires agencies participating in the
DOJ Equitable Sharing Program to annually submit to AFMLS a signed
Equitable Sharing Agreement and Certification form within 60 days after the
end of the agency’s fiscal year. T he AFMLS requires that the Equitable
Sharing Agreement and Certification form be signed by the head of the law
enforcement agency and a designated official of the local governing body.
Additionally, the receiving agency should submit a newly signed agreement
when an administration change occurs. By signing and submitting the
agreement, the signatories agreed to follow statutes and guidelines that
regulated the equitable sharing program.

       We tested compliance with the Equitable Sharing Agreement and
Certification form requirements to determine if the required forms for FYs 2010
and 2011 were accurate, complete, submitted in a timely manner, and signed
by the appropriate officials. We identified errors in the 2010 and 2011
Summary of Equitable Sharing Activity and Summary of Shared Monies Spent
reported by the KCPD. Specifically, we found that:

      •	 for FY 2010, DOJ Interest Income Accrued and Total Equitable
         Sharing Funds were understated by $758, DOJ Total Federal Sharing
         Funds Spent was understated by $828, and DOJ Funding Balance was
         overstated by $70; and

      •	 for FY 2011, DOJ Interest Income Accrued and Total Equitable
         Sharing Funds were understated by $389, DOJ Federal Sharing Funds
         Spent was understated by $395, and DOJ Funding Balance was
         overstated by $6.

      These errors were due to the fact that, as previously discussed, the
KCPD did not separately account for DOJ equitable sharing funds in its official
accounting records. According to the Accounting and Payroll Section
Supervisor, for reporting purposes, all equitable sharing funds expenditures
were considered first to be Department of the Treasury funds until
expenditures equaled the Department of the Treasury equitable sharing funds
received; then subsequent equitable sharing expenditures were considered to
be DOJ equitable sharing funds. The Supervisor advised us that the KCPD
allocated interest earned and checking account service charges throughout the
year between DOJ and the Department of the Treasury based on each


                                     -8-
Department’s percent of the current checking account balance.

      We also noted that the KCPD reported all 2010 Interest Income Accrued
as DOJ activity, even though the KCPD also received equitable sharing funds
from the Department of the Treasury, and the funds were deposited in the
same account as DOJ equitable sharing receipts. Further, we noted that the
KCPD did not report 2011 Department of the Treasury equitable sharing funds
spent on matching grants in the Summary of Shared Monies Spent section of
its 2011 Equitable Sharing Agreement and Certification. However, these
expenses were accurately reported in the Table G: Matching Grants and
Summary of Equitable Sharing Activity sections of the report.

      The KCPD Accounting and Payroll Section Supervisor acknowledged the
reporting errors and advised us that in response to our notification of the
requirement for separately accounting for DOJ equitable sharing funds, the
KCPD implemented procedures to separately record DOJ equitable sharing
funds. The KCPD Accounting and Payroll Supervisor also advised us that the
KCPD started recording checking account service charges as expenditures
rather than as debits to the Interest Earned account. According to the
Supervisor, these actions will help ensure accurate reporting on the Equitable
Sharing Agreement and Certification reports.

       Through our review of the Equitable Sharing Agreement and Certification
forms submitted by the KCPD, we determined that the KCPD FYs 2010 and
2011 annual Equitable Sharing Agreement and Certification forms were
submitted prior to the established deadlines. However, the KCPD's 2011
Equitable Sharing Agreement and Certification form contained a discrepancy,
which required an amended submission. According to the KCPD Asset
Forfeiture Detective, the KCPD reported shared assets from a joint
investigation as strictly DOJ receipts even though participants in the
investigation also included Immigration Customs and Enforcement personnel
from the Department of Homeland Security. Th erefore, the KCPD was
required to amend and resubmit the annual Equitable Sharing Agreement and
Certification form. This was accomplished on July 11, 2011, 72 days after the
end of KCPD’s fiscal year.

        Although the KCPD’s amended 2011 Equitable Sharing Agreement and
Certification form was not submitted within the required deadline, because its
initial 2011 Equitable Sharing Agreement and Certification form was submitted
in a timely manner and because the KCPD responded to AFMLS direction to
submit an amended 2011 Equitable Sharing Agreement and Certification form
in a timely manner, in our judgment, the KCPD was in compliance with the
AFMLS reporting requirement. Further, we found that the 2011 Equitable
Sharing Agreement and Certification form was signed by appropriate KCPD


                                    -9-
and Board of Police Commissioners officials.

Use of Equitable Sharing Funds

      Generally, the use of equitable sharing revenues by state and local
recipient agencies is limited to law enforcement purposes. However, the
2009 Equitable Sharing Guide identifies other permissible uses such as drug
and gang education and awareness programs, matching contributions in
federal grant programs, a law enforcement agency’s percentage of the costs to
support multi-agency items or facilities, costs associated with properly
accounting for equitably shared monies and tangible property, training in
connection with language services for persons with limited English proficiency,
and non-cash support of formally approved nonprofit community-based
programs.

      During FYs 2010 and 2011, the KCPD expended $377,485 in DOJ
equitable sharing funds. 5 The expenditures included computer equipment,
travel and training, asset accounting and tracking, and federal grant program
matching contribution requirements.

       To assess whether the KCPD’s DOJ equitable sharing fund expenditures
were allowable and supported by adequate documentation, we judgmentally
selected and tested 18 equitable sharing expenditures totaling $358,726.
The sample included high-dollar purchases, as well as an assortment of costs
we judgmentally selected to ensure our sample would provide sufficient
evidence to address the audit objectives, reduce audit risk to an acceptable
level, and provide reasonable assurance that the evidence was sufficient and
appropriate to support our audit findings and conclusions.

                TABLE 3:      REVIEW OF KCPD EXPENDITURES

                               FY 2010 and FY 2011

                                                                Total Amount
          Expenditure Description        Total Expended
                                                                   Tested
      Computer Equipment                   $358,233.11           $346,119.16
      Travel and Training                    11,167.77              5,752.60
      Matching Contribution                   6,629.94              6,629.94
      Asset Accounting and Tracking           1,454.65                224.26
                             TOTAL        $377,485.47           $358,725.96
     Source: KCPD and AFMLS

     We evaluated the KCPD’s supporting documentation to determine
whether the sampled expenditures complied with the permissible uses defined
      5
         The total KCPD expenditures for FYs 2010 and 2011 are adjusted for the checking
account service charges recorded as debits to the Interest Earned account.


                                         - 10 -
in the 2009 Equitable Sharing Guide. We also analyzed the supporting
documentation to ensure the purchases were approved, goods and services
were received, and vendors were paid. Finally, we evaluated whether the
equipment items in our expenditure sample were at the location recorded in
the KCPD Fixed Asset Report and were being put to an allowable use.

       Through our testing, we determined that DOJ equitable sharing funds
were used for allowable purposes, the expenditures were supported by
adequate documentation, and purchased equipment was at its assigned
location and being put to an allowable use.

Supplanting

       The 2009 Equitable Sharing Guide also requires that shared resources be
used to increase or supplement the resources of the recipient agency and
prohibits the use of shared resources to replace or supplant the appropriated
resources of the recipient. To test whether equitable sharing funds were used
to supplement rather than supplant local funding, we reviewed the agency’s
local budgets for FYs 2009, 2010, and 2011.

      Through our review of the KCPD’s budget documents, we found that
KCPD’s total budgeted appropriations decreased from FY 2009 to FY 2010.
However, through our review of the city of Kansas City, Missouri 2009 - 2010
Adopted Activity Budget, we determined the decrease was to limit the KCPD's
budget growth to match revenue growth in the city of Kansas City’s General
Fund. Further, the KCPD total budget increased from FY 2010 to FY 2011 and
from FY 2011 to FY 2012. Therefore, we concluded equitable sharing funds
were not used to supplant KCPD's budget.

Views of Responsible Officials

      We discussed the results of our review with KCPD officials throughout the
audit and at a formal exit conference. Their input on specific issues has been
included in the appropriate sections of the report.

Recommendations

      We recommend that the Assistant Attorney General, Criminal Division:

      1. Ensure that the Kansas City Police Department separately accounts
         for DOJ equitable sharing funds in its official accounting records.




                                    - 11 -
2. Ensure that the KCPD accurately reports DOJ equitable sharing
   program expenditures on its Schedule of Expenditures of Federal
   Awards.

3. Ensure that the Kansas City Police Department accurately reports
   DOJ equitable sharing receipts, expenditures, and interest income
   accrued on its Equitable Sharing Agreement and Certification
   Reports.




                             - 12 -
                                                                 APPENDIX I



           OBJECTIVES, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate, evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

      The objectives of the audit were to assess whether the Kansas City Police
Department (KCPD) accounted for equitably shared revenue and tangible
assets were accounted for properly and used for allowable purposes defined by
applicable guidelines. We tested compliance with what we considered were
the most important conditions of the Department of Justice’s (DOJ) equitable
sharing program. We reviewed laws, regulations, and guidelines governing
the accounting for and use of DOJ equitable sharing receipts, including the
Guide to Equitable Sharing for State and Local Law Enforcement Agencies,
dated April 2009. Unless otherwise stated in our report, the criteria used
during the audit were contained in these documents.

       Our audit concentrated on, but was not limited to, equitable sharing
receipts received by the KCPD between May 1, 2009, and April 30, 2011.
During FYs 2010 and 2011, there were 110 receipts totaling $1,361,418. We
tested a judgmental sample of five receipts totaling $477,024. D uring
FYs 2010 and 2011 there were equitable sharing fund expenditures totaling
$377,485. We selected a judgmental sample of 18 transactions, totaling
$358,726, for testing. Judgmental sampling design was applied to obtain
broad exposure to numerous facets of the disbursements reviewed, such as
dollar amounts. This non-statistical sample design does not allow projection
of the test results to all disbursements.

       We performed audit work at KCPD headquarters located in Kansas City,
Missouri. To accomplish the objectives of the audit, we interviewed KCPD
officials and examined records, related revenues, and expenditures of
equitable sharing funds. In addition, we relied on computer-generated data
contained in the DOJ Detail Distribution Report for determining equitably
shared revenues awarded to the KCPD during the audit period. We did not
establish the reliability of the data contained in the DOJ equitable sharing
system as a whole. However, when the data we relied upon is viewed in
context with other available evidence, we believe the opinions, conclusions,
and recommendations included in this report are valid.




                                    - 13 -
       Our audit specifically evaluated the KCPD’s compliance with five
essential aspects of the 2009 Equitable Sharing Guide: (1 ) required
accounting standards for equitable sharing funds, (2) monitoring
requirements for Applications for Transfer of Federally Forfeited
Property,(3) audit requirements, (4) submission of complete and accurate
Annual Equitable Sharing Agreements and Certification forms in a timely
manner, and (5) permissible use of equitable sharing funds. In performing
our audit, we considered internal controls established and used by the KCPD
over DOJ equitable sharing funds to accomplish our audit objectives.
However, we did not assess the KCPD’s financial management system’s
reliability, internal controls, or whether it, as a whole, complied with laws and
regulations.

       Our audit included an evaluation of the KCPD, a component of the city of
Kansas City, Missouri, which was included in a city-wide audit conducted by a
certified public accounting firm. The results of this audit were reported in the
Single Audit Report for the year ended April 30, 2011. The Single Audit
Report was prepared under the provisions of Office of Management and Budget
Circular A-133. We reviewed the independent auditor’s assessment, which
disclosed no control weaknesses or significant noncompliance issues related
specifically to the KCPD.




                                     - 14 -
                                                                                                                                                                                  APPENDIX II



                                                   AUDITEE RESPONSE




                                                                                                                                                        Chief',            OfTi~




Police                                                                                                                           K:::In:.;~8
                                                                                                                                                               1 ~2& L(·Cl.:'5t
                                                                                                                                               Ci'.;'. r..ll~::!.Uuli 6-1 t:Jfj
                                                                                                                                                                t"""""'{'; r.-j OfT)
                                                                                                                                                         '.~I ...


                                    KC/MO
Darryl forte                                                                                                                              Off;cE' (S' :;; n4-ro01fJ
 ''::h~of"=>:)Ib!-                                                                                                                          f· il.x: (:J' :J:. 2301-50: 3




[',..ar(J'.s. T"lrj;ls~
rJl~'ul ::i R~rna 11
R~~lona[           Audit Mana(T€l1
U,S . D€,~r:;rnel'rl Of JLJstice­
OI'iW {.If Llle 11$peCOOr Gar.~1
C hiCBgc R~ ~r.e.! Au ::I't OOi~
~jto W0G: r./l;;l:o!lisor:. Su·[0 1121
ChiC"..=:Igc I L f'tOOO';

t:k1'llr M:;;. T~r;:;s.z!w.l end            rJI:=..   R.f.I:r.a:1:

                 Or: bctl.:l; ~ 01 fh~ K.=ms.as Cil, Police Depan:'r.£!r.lt, I w:ll.'lr:I 1i~2 I:J tdka tllll:i Ljpp~turlitl t:J
~:-:pre....<tS   the    De~rb~e'i'lrs             .:lr:JpreCtalioo for the                 ~pponunity          to PMicip:l:e !n the Jus.!icc t:::ql;itable
Sharing Pr::::gr.arr;. li'1 (~ j~ a ....'cdh·6hll!:c' p"~OI'ETll that mn; ~r!arJed th!:- De;:.::.(lmltlm                                                            to   .3('"..qU iI8
I\:..:ooeo equipmeri. T"It: cepillt"r'1e:'1t 's corn(,lltOO l(.l the nisei,.)!) of lh~ DOJ A.sSCl r:01e'l:..ue
?n:qrarr..

                 I ha ... ~   dj!:l cl-S~ ed     this.    !h.. :::Iit   and iL"t.    ~r.[)lI!m8nd:j'~on o              ....~th    ~aff_   k       1S4L1est.eC in "yOut
~tJtill, "!I',~ t>lIo\\ll:1~        are our       respon~e~              to DOj       ~ coomr1Cnd31fol1~.




                               '.    F.n~Llre         that iJ1e r<~I-~S c.:1:y 1-'011<:<;:: f)F.fJ;;t:tme'li sepa;·i!it';41 fH;O::OUOIls tor ()OJ
                                    «::q: .. i!filt:lr. ~Mri""Q 'Il.;nd:e. in itn n-:liciril ilccour,ting re-:':::::t'ds.




                              PIC DE'par':m~nt ag.-ef.~ .i:l:1rJ :1 ... s. implE:i11t:Jll:::c· th . ~ i[;oorncc ; llj~li(}n In rilit;;,;.]
                              YP.ar~ (: 1? II ron notifir.:::Itior by flO.J !lL:d::orB. Th ~ Fi!,:~81 Ye-a~ 2(l1 3 ,')n,jptof!d
                              8;Jcgd will_ im:h..;dc 1..f"J::: ~vpropl"ilt2 :lQ):)U I dnJ ~111jr_i~1 (.' :::.e1J ft:>;J<.1L1119 OOJ :md
                              DOT fU:10ing and expem.<ituy(:s                              ir-l;--:~   offi<::al   ~:)l.·nii.,g r~coltl s-.


                              OOJ R.~J:~.n)e;n_c;i;Jtion

                              ?:.    Fnsl;re ij'ai tl"]e: KCPD <.9ccv:"";:""i:ety                     re~o't{. OOJ equitable :S· 1::'1dl~ ~rc:;l!·:;1 ; ""1
                                    e.;.:pE'nJi~L.;I~         on        I~   St:.rle-:1ule of E;.::J::€IndilL:rl:>S of Fi::!t!ardl Aw2lf.n.



                              l/",c Oa~:i:":'lS"'lt ",grotS wl:h tt-,I~ -Q.:;omtr~l1d3t:~r: ;;InO oM:! report ~>:pendItWC;~
                              !'.F.p;;;l:!'tel:-- h r OO,j Rn~ oo-r m the .'~~r.."!dlJl~::::f r- x rp-nd i tlJ":"oP.~ .,f                            FE'!d~r:jl , A'h~rd~



                                                                                 J' .~I>    l




                                                                                      - 15 -
                        3.      'i:nSlJr€: tha! the K...inMs Clt:l                       F':)I~ Departrner") ~ ~o:::alratt'!l\' "e'O:::rt~           DOJ
                                E:?!::Jliil..l:t;ulE::-   lt~larin; (E!C~ipl!::. i:l~ t :i· 'lJ....les, ~)II(! i~llt\:~~l  Inoot'rll;j   ~oo(u~Ci   on Its
                                M!..'ireble               81-,~hlq At~Il1~r:t          !;If,n CE'!r:;ficll;llir..n Rp.Il.,m



                        ',"""'~h    fI-,!'!            .,f r!': C:l rTr·r· P.I~ct~!Ilr! :.It':: this wili ~r:!'.L: :l'! thF..t more
                                                'mpl~lYl~r·tatil)":l
                        ii~urah; a~..ouiling  inf::rmiit.orl il; CNilil.:Jbl& t:J ~ &!;IOlt d.;,Jlii Il3li::1lcd IJ OOJ i:lnll
                        DUr iXt 'V~f on ; h~ Fqll '"IDh!e ~t-:)~ir.!J ~\gr.~;!I=:· !"I1~~ ~l1d C":f.!rtifir.:ni'1 Re;"iorts.

           Un boh.:'1I' cf tM L:cpflrtrei"lt, I IJlOlIkl !ike: tt) <\Ci(no\,llloo~ tho '-;OOP~T?!· on "I'.!j r.olJrtF::~y
aH:}f"df.'d us :idring fh~ F.:!ldil. My sjl'lff vdl be a"'i:liIF.tJ~ ~o di~lJss thi~ audit fI.. rth(:!l , if 5LbocquenL
C:Liestions need cIJriticatLor: .




GC        l..I:T1.vir1;,i€:-@usd::>'.gcv
          ,Ion "ll-"or. S ho.:::;"'.'@LJ ~oLo::!(')v
          lJ-.::r :se "f LlI".r·:·::r:.tr;,&t:...Isd-oj      ~(lV"
          ALD.@iJI':COj.gov




                                                                                 - 16 -
                                                                  APPENDIX III



               OFFICE OF THE INSPECTOR GENERAL

              ANALYSIS AND SUMMARY OF ACTIONS

              NECESSARY TO RESOLVE THE REPORT 


      The OIG provided a draft of this audit report to the Criminal Division and
the KCPD. The KCPD’s response is incorporated in Appendix II of this final
report. However, the audit recommendations are unresolved because the
Criminal Division declined to provide comments on the draft report. The
following provides the OIG analysis of the KCPD’s response and a summary of
actions necessary to resolve each report recommendation.

Recommendation Number:

   1. Unresolved. The KCPD concurred with our recommendation to
      separately account for DOJ equitable sharing funds in its official accounting
      records. The KCPD stated that beginning in FY 2013, the accounting
      structure will segregate DOJ and Department of the Treasury funding and
      expenditures in the KCPD’s official accounting records.

      However, this recommendation is unresolved because the Criminal
      Division did not respond to the draft report. This recommendation can be
      resolved once the OIG and the Criminal Division reach agreement on
      corrective action planned to address the recommendation.

   2. Unresolved. The KCPD concurred with our recommendation to report
      DOJ equitable sharing program expenditures on its Schedule of
      Expenditures of Federal Awards.

      However, this recommendation is unresolved because the Criminal
      Division did not respond to the draft report. This recommendation can be
      resolved once the OIG and the Criminal Division reach agreement on
      corrective action planned to address the recommendation.

   3. Unresolved. The KCPD concurred with our recommendation to
      accurately report DOJ equitable sharing receipts, expenditures, and
      interest income accrued on its Equitable Sharing Agreement and
      Certification forms. The KCPD stated the changes to its accounting
      system that were implemented in response to recommendation number 1
      will ensure more accurate reporting of DOJ equitable sharing program
      activity on its Equitable Sharing Agreement and Certification forms.

      However, this recommendation is unresolved because the Criminal
      Division did not respond to the draft report. This recommendation can be



                                      - 17 -
resolved once the OIG and the Criminal Division reach agreement on
corrective action planned to address the recommendation.




                             - 18 -
